                                                      NATIONAL SCIENCE FOUNDATION·
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

                     I
  Case Number: A07120069                                                                            Page 1 of 1



                 I  Our investigation determined that the Subject l knowingly fabricated figures in a
           publication describing NSF-supported research and in her Ph.D. dissertation. The Subject's acts
           wer6 a significant departure from accepted standards, and constituted research misconduct. NSF
           tooK the following actions: made a finding of research misconduct by the Subject; sent a letter of
           reprimand to the Subject; debarred the Subject for 3 years; required the Subject to submit
           certifications to the Assistant Inspector General for Investigations (AlGI), NSF OIG for 3 years after
           debarment ends; required the Subject's employet: to submit assurapces to the AlGI of NSF OIG for 3
           year's after debarment ends; prohibited the Subject from serving as a reviewer of NSF proposals for 6
           years; and required the Subject to provide certi.fication to the AlGI that she has completed a course in
           ethics training within one year of the finding of research misconduct.

                   This memo, the attached Report ofInvestigation, and the Deputy Director's letters
           constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
           ,
.1:   .''''




              CONFIDENTIAL                                                                           CONFIDENTIAL




                    National Science Foundation
                      Office of Inspector General




                                    Confidential
                               Report of Investigation
                              Case Number A07120069




              This Confidential Report of Investigation is the property of the NSF OIG and may be disclosed outside
                  NSF only by OIG under the FreedomofInformation and Privacy Acts,S U.S.c. §§552, 552a.

                                                                                               NSF OIG Form 22b (11/06)



        ! '
                                               Executive Summary
Allegation:

  I    We received an allegation that the Subject had fabricated images in a publication and in
her Ph.D. dissertation.                      .
      I	                                         ,

The University's investigation established that:

           • 	 the Subject falsified images that appeared in a publication and in her Ph.D. dissertation;
           • ' the Subject acted purposefully; and
           • 	 the Subject comniitted research misconduct.

OIG concludes that:

           • 	 Act: The Subject falsified images representing scans of gel blots and thin-layer
               chromatograms.
           • 	 Intent: The Subject acted purposefully. '
           • 	 Significant Departure: The Subject's acts were a significant departure from accepted
               practices of her research community.
           • 	 Standard of Proof: A preponderance of the evidence supports a finding that the Subject
               committed research misconduct.
 I,                '

OIG recommends that NSF:

           •    make a finding of research misconduct by the Subject;
 I         •    send a letter of reprimand to the Subject;
           •	   debar the Subject for 3 years;                                     .
           •	   require the Subject to submit certifications to the Assistant Inspector General for
                Investigations (~GI), NSF OIG for 3 years after debarment ends;
       •	       require the Subject's employer to submit assurances to the AlGI of NSF OIG for 3 years
                after debarment ends;                                                             .
       •	       prohibit the Subject from serving as a reviewer of NSF proposals for 6 years; and
       •	       require the Subject to provide certification to the AlGI that she has completed a course in
                ethics training within one year ofthe finding of research' misconduct.




                                                         1
                                                    Case Initiation
                                                                 l
             We received an allegation that the SUbJect had improperly manipulated images in a
     publication2 that acknowledged NSF support. {We referred an inquiry to the University;4 the
     inquiry5 established substance to the allegation. We subsequently referred an investigation to the
                                                    6
     University, which conducted an investigation.
      I



                                            University's Investigation
      I
          We received a copy of the University Investigative Committee's (IC) report and
  SllPporting documents and exhibits. 7 As a part of its inve~tigation, the IC interviewed the
  Subject, the Subject's faculty advisor, her laboratory colleagues, and examined computer records
 and laboratory notebooks. Additionally, the IC reviewed individual images that appeared in the
 ~ublication8 and the Subject's Ph.D. dissertation,9 and examined the supporting records for those
 images.
   I
          The IC examined the images with image software and identified image manipulation that
 '1went well beyond what most scientists would consider reasonable." 10 The IC concluded, by a
 preponderance of the evidence, that the Subject intentionally falsified Figures lA, IB, 3B, 3C,
 4A, and 4C in the publication. TheIC concluded that corresponding images appearing within
 Chapters 4 and 6, and the Appendix, of the Subject's Ph.D. dissertation also were intentionally
 falsified.                               .

         The IC examined additional images in the Subject's Ph.D. dissertation, and supporting
 records for those images. The IC concluded, by a preponderance of the evidence, that the
 Subject intentionally falsified Figure3 (left p~el), Figure 3 (right top panel), Figure3 (right
 qottom panel), Figure 4 (top panel), Figure 4B (Appendix), Figure 4E (Appendix), and Figure 6
 (Appendix) in her dissertation. The IC examined all supporting records provided by the Subject
 for each image. The Subject was unable to provide the original data file for multiple figures for
 Which the IC had concerns. The IC report stated: 11               .


           [The Subject] could not identify original films for Figs. 3 or 4 in Chapter 6
           of her dissertation, and yet she identified films for Figs 4C, sA, and 6B in
           the Appendix, for which the Committee expressed no concerns. This

 I




         -referred an                                            because the University was ina better position to make
  a definitive assessment
  5 The university's inquiry report is at Tab 3.
  6 Our referral of investigation letter is at Tab 4.
  'i The Ie report is at Tab 5.                     .
  8 Tab!.
. ~ The Subject's Ph.D. dissertation is included at Tab 6.
  10 Ie report, Items 1-5, pages 4,5 (Tab 5).
  11 Ie r~port, page 8 (Tab 5).




                                                             2
            strengthened the Committee's concerns that [the Subject's] ability to find
            particular films was inversely related to the committee's interest in them.
            That is, she continued to find films for images that were of no concern, but
            failed to find films for suspect images.

         The IC also noted that the Subject was unable to provide original data for Figure 2A,
 Figure 2B (lane 2), Figure 3A, Figure 3C (lane 1), Figure 4B, and Figure 4D in the publication.
 The IC concluded that the inability to produce the original source files would also be considered
 urlreasonable
   I           by most scientists.        .                                      .
     f
         Prior to her final interview with the IC, and after initial evaluation ofthe images had been
 completed by the IC, the Subject provided original film records for some of the images.
 Although these originals had previously been requested, the Subject did not provide them at that
 time. The IC examined the newly provided films and compared them to the manipulated images
 in the Subject's dissertation. The IC concluded that some of the films did not correspond to the
 questioned images. However, the IC concluded that the Subject improperly manipulated the
 scanning process when she removed artifacts frQm several ofthese images, and that this
 constituted intentional falsification ofthe image by the Subject.

         The Subject responded to each of the IC's findings regarding the falsified images. In
some instances, the Subject admitted to sloppiness, but the Subject steadfastly denied intentional
falsification of the images. In a final interview, the IC asked the Subject if-cutting and pasting of
th~ images had occurred. The Subject responded: 12                                                    .


            They must have be6n. I mean, I can't argue some of the - some of the
            filins I can put my hands on I can show that those alterations were not done.
            But there are things that look like the films were alt~red or the files were
            altered. And I did not do ·them. And I have no explan~tion for that. But I-
          . I understand that in the end that these are things that I represented as my
            data, and that is completely wrong.

         The IC concluded that the Subject's intentional falsification constituted research
misconduct. The Subject's manipulation of images involved cut-and-pasteoperations from
several graphics files, and the repositioning of the copied image at a desired position in the final
falsified image. In other instances, smaller images were flipped horizontally or vertically and
then copied into a larger image. 13 These image manipulations are clearly intentional.

       The IC recommended retraction ofthe publication in which the falsified images.
appeared, and retraction of Chapter 4, Chapter 6, and the Appendix ofthe Ph.D. dissertation.
The IC concluded that the decision as to whether the Ph.D. degree awarded to the Subject should

     I
12   ~C report, page 8 (Tab 5).                                  .
13 ['he IC report provides the detail for the fabrication and falsification of each separate image. For instance, the IC
determined that Figures lA, 3B, 3C, 4A, and 4C in the publication were fabricated by compiling a series of smaller
independent.images, and that Figure IB was falsified because that same image appearstwice but with different
descriptions. Additional instances of manipulation offigures in the publication and the Subject's dissertation are
detailed in the IC report.


                                                           3
       I

 be revoked resided with the Graduate School. . Finally, the IC recommended public disclosure of
 the Subject's research misconduct.                             .

   I.     The University Provost (Tab 7) concurred with t!te re~ort ofthe IC, and took action to
 reyoke the ~h.D. degree and retract the dissertation. 4 A retraction of the publication
 appearediil_ (also at Tab 7).                                                  .

                                               OIG's Assessment

        On receipt of the University's investigation report, we resumed our investigation, and so
 informed the subject. We also invited the Subject to comment on the University IC report. The
 Subject did not respond.

        We concluded that the IC report was accurate and complete, and thatthe University
followed reasonable procedures. OIG accepts the report in lieu of its own investigation.
Exhibits included with the report 15 convincingly show that images in the publication and in the
Subject's Ph.D. dissertation were composites from several separate image files. The Subject
denied falsifying the images; and the faculty advisor claimed (at first) 16 that only acceptable
manipulations of contrast and brightness were completed, but the evidence clearly indicates
otherwise.

       A finding of research misconduct by NSF requires that 1) there be a significant departure
from accepted practices ofthe relevant research community, that 2) the research misconduct be·
committed intentionally, or knowingly, or recklessly, and that 3) the allegation be proved by a
preponderance of the evidence. l7                        .


   I                            .   Acts that are a significant departure

   I         The Subject falsified mUltiple images in both a publication acknowledging NSF
su~port, and in her Ph.D. dissertation. The Subject's falsified images appeared in a research
publication 18 for which the manuscript submission guidelines are specific: .

             While image manipulation is often desirable for clarity andlor brevity of
             presentation, manipulation for deceptive purposes either to unfairly
             enhance or eliminate or otherwise obscure data is misconduct and will
             be resolved according to Journal policy. For graphic material, we have
             adopted a policy taken from The Journal of Cell Biology.

            .No specific feature within an image may be enhanced, obscured, moved,
             removed, or introduced. The groupings of images from different parts of

14 The University is also considering possible sanctions for the faculty                           however, no
actions were taken as of the time of this report.
15 Appendix K in the IC report.
16 An undated letter from the Subject's faculty advisor is included in the Inquiry Report as "To Whom It May
Concern" (Tab 3).
J7~
18 _ _ _ _ _ _ _




                                                        4
                   the same gel, or from different gels, fields or exposures must be made
                   explicit by the arrangement ofthe figure (e.g. using dividing lines) and in
                   the text ofthe figure legend. Adjustments of brightness, contrast, or color
                                                           as.
                   balance are acceptable if and as long they do not obscure or eliminate
                   any information present in the original. Nonlinear adjustments (e.g.
                   changes to gamma settings) must be disclosed in the figure legend. 19
                                 '\




           We agree with the University Ie that the Subject's actions were purposeful. The
   Subject's manipulation of images involved cut-and-paste operations from several graphics files,
   and the positioning of the copied images at the desired position in the final falsified images. In
   other instances, smaller images were flipped horizontally or vertically to attain the desired
   appearance and then copied into larger images. These image manipulations are clearly
   purposeful.

                                               Standard ofProof

     .     The Ie examined the allegedly falsified images and (when available) the original image
  files, and reconstructed the steps involved in the falsifications. 2o The Subject agreed that
  falsification had occurred in some images in both the publication and in her dissertation, but
  denied doing so herself. However, the Subject was solely responsible for creation ofthe figures
  in her dissertation. The Ie concluded that the preponderance of evidence shows that the
  falsification was completed by the Subject, and we concur.

          We therefore conclude that the Subject's purposeful acts, of falsification constitute
  research misconduct.                                            '

                                          OIG's Recommendations

           When deciding what appropriate action to take upon a finding of misconduct, NSF must
  consider: 1) how serious the misconduct was; 2) the degree to which the misconductwas
  reckless, knowing, or intentional; 3) whether itwas an isolated event or part of a pattern;
  4) whether it had a significant impact on the research record, research subjects, other researchers,
  institutions or the public welfare; and 5) other relevant circumstances. 21  .


                                                  Seriousness

        Falsification of images undermines the core of research integrity, subverting not only
 immediate'research conclusions, but also creating a false foundation for subsequent research.
 The Ie report stated 22 that the Subject's research misconduct:

  19    The guidelines are at:
. 20    Appendix K in the                                    image manipulation and the tools used to expose it.
 21    45 C.F.R. §689.3(b).


                                                       5
                undermines the scientific reputation of her advisor~ the department, ~e
                college, and the university. Moreover, it betrays public confidence and trust
                in the scientific and academic institutions. Each revelation of miscohduct
                begs the question among our peers and our constituents: how many bore
                remain to be uncovered?                                              I
           Accordingly, the Subject's numerous falsification of images in this base rises to a
    syriousness thafjustifies debarment.

                                               Degree to which the Act was Purposeful

           The Subject falsified numerous images in the publication and in he~ Ph.D. dissertation.
    This action requires both a willingness to accomplish this deceit, as well a~ an understanding of
    what results the images should support, and the premeditated plan to falsitt the' images to
    achieve that end. Her ~cfions were distinctly purposefuL                     .

                                                              Pattern

             The Subject exhibited a pattern of research misconduct through multiple image
    falsifications from the time of submission of the pUblication, through its a9ceptance and
    publication, through to the preparation of her Ph.D. dissertation~ and finally her defense of it
    before the faculty of her University.

                                                     Impact on the research record

     i The publication in which the falsified image appeared has been cited I
                                                                              6 times. 23 The
Vniversity Provost has decided that the publication should be retracted. Ttte University is
separately considering what actions to take with respect to the subject's Ph.D. dissertation, which
remains available online:                                                   I
     I                                                     Inve~tigation Jeport
                                     Subject's Response to the.Draft

       We sent a draft copy ofthis report to the subject for comments. wr received no
                                                                          I             l


response..

                                                       Recommendation

               Based on the evidence in this case, NSF OIG recommends that NSF:

          •    Make a finding of research misconduct;
          •    Send a letter of reprimand to the Subject;24
          •    Debar the Subject for a period of 3 years;25

~ IC report, page 9.                                                             .
23       Citations to this publication are tabulated in the Science Citation Index.
24       This is listed as a Group I action, 45 C.F.R. § 689.3(a)(1)(i).
I




                                                                 6
i.



                                                                                         i


             ..
               •     Require the Subject to submit certifications to the Assistant Inspector General for
                     Investigations (AlGI), NSF OIG for 3 years after debarment ends;26
                     Require the Subject's employer to submit assurances to the AlGI of NSF 010 for 3 years
                     after debarment ends;27 .
             i·      Prohibit the Subject from serving as a reviewer of NSF proposals for 6 years;28 and
              •    	 Require  the SUbject to provide certification to the AlGI that she has comfleted a course
                     in ethics training within one year of the finding of research misconduct. 2




      25    Debarment is a Group III action, 45 C.F.R. § 689.3(a)(3)(iii).
      26    A certification is similar to Group I actions, 45 C.F.R. § 689.3(a)(l) .
     . 27   This is a Group Iaction, 45 C.F.K § 689.3(a)(1)(iii).
      28    This is a Group III action, 45 C.F.R. § 689.3(a)(3)(ii).
      29    EthH;s training is similar to Group I actions, 45 C.F.R. § 689.3(a)(1).


                                                                     7
                                   NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON. VIRGINIA 22230




   .      OFFICE OF THE
       . DEPUTY DIRECTOR




CERTIFIED MAIL ~-RETURN RECEIPT REQUESTED




       iRe:        Notice of Proposed .Debarment and Notice of Rdearch Misconduct
                   Determination .
       I
. ear
D




                                                               , you.
                                                         in support of your pursuit of a doctorate
                                          ves:tle:;atnre report, you knowingly falsified images that

        I                                                                      I
In light of your misconduct, this letter serves as fOrina! notice thatthe Na:tional Science
Foun~ation ("NSF") is proposing to debar youfromdirectly or indirectly obtaining the benefits
of Federal grants for a period of three years. During your period of debarmetit, you will be
precluded from.receiving Federal financial and non-financial assistance and benefits under non-
procUrement Federal programs and activities. In addition, you will be prohibited from receiving
any.Federal contracts or approved subcontracts under the Federal Acquisition Regulations
("F-Nt"). Lastly, during your "debarment period, you will be barred from having supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency ofthe Executive Branch of the Federal
                                                                                 I
Go vernment.
      I
                                                                          .

In addition to proposing your debarment, lam prOhibiting you from serving as an NSF reviewer;
advisor, or consultant until                    Furthen::nore, for three years:after the period of
debarment expires, I am requiring that you submit certifications, and that ar~ponsible official of
your employer submit assurances, that any proposals or reports that you submit to NSF do not
                                                                                       1


                                                                                              Page 2
 contain plagiarized, falsified, or fabricated material. Lastly, you must complete an ethics .
 training course on research misconduct no later than                       , and certifyin writing
 to the OIGtpat you have done so ..

 Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication,falsification, or
plagiarism in proposing or performing tesearch fuqded by NSF ..." 45 CPR 689.1(a).
Falsificatiott is defined as "manipulating research materials, equipment, or processes, or
changing or omitting f;lata or results such that the research is not accurately represented in the
research recQrd." 45 CFR689.1(a)(2). A finding ofresearch misconduct requires that:

        (1) 	~here b~ a significant departure from accepted practices of th~ relevant research
             communtty; and                     .                     .
        (2)Tlhe 	research misconduct be committed intentionally, or ~owingly, or recklessly;
            and                                                                            .
       (3) 	The allegation be proven by a preponderance of evidence.

45 CFR 689.2(c).
             L
As the OIG' S1 report demonstrates, you falsified images representing scans of gel blots and thin-
     .chromato          These falsified images appeared in the article published in t h e _
                        as well as your Ph.D. dissertation. Thus, your conduct unquestionably
constitutes                I therefore conclude that your actions meet the applicable definition of
"research mi~condllct" set forth in NSF's regUlations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make afinding of
misconduct based on a preponderance ofthe evidence. 45 CFR 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
falsification wascom:m.itted intentionally and constituted a significant departur.e from accepted
practices of the ;elevant research community. I am, therefore, issuing a finding of research
misconduct against you.

NSF'sregulations establi:sh three categories of acdons(GroupI, II, and III) that can be taken in
response to a pnding ofmisconduct. 45 CFR 689.3(a). Group I actions include issuing a letteJ;
ofreprimlmd; conditioning awards on prior approval ofparticularacti:\jties from NSF; requiring
that an institution or .individual obtain special prior approval of particular activities from NSF;
and requIring :that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR 689.3(a)(1). Group II actions
include awardI suspension or restrictions on designated activities or·expenditures; requiring
special reviews ofrequests for funding; and requiring correction to the.tesearch record. 45 CFR
689.3(a)(2), Group III actions include suspension or termination of awards; prohibitions on
parti~ipation as NSF reviewers, advisors or consultants; and debarment orsusp.ension from
                                                                                                  Page 3
participation in NSF programs. 45CFR 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, Ihave considered
the seriousness of the misconduct; our determmationthat it was committed intentionally; the
impact your misconduct had on the resear<;:h record;.and the determination that it was part ofa
pattern ofmisconduct. I have also considered other relevant circumstances. 45 CFR 689.3(b).
    I

I, therefere, take the following actions:
    I


    • 	 Foi: three years after the expiration of your debarment period, you are required to submit
        certifications that any proposals or rep'OIts you submit to NSF do not contain plagiarized,
        falsified? or fabricated material.

    ~ 	     For three years after the expiration of your debarment period, you are required to submit
            assurances by a responsible official of your employer that any proposals or reports you
            submit to NSF do not contain plagiarized, falsified, or fabricated material.

    • 	 From: the date ofthis letter through                         , you are prohibited from serving
        as an NSF reviewer, advisor, or consultant.
        i
    • 	 You are required to complete an 'ethics training course On research misconduct no later
        than                     You must certify in writing to the QIG that such training has
        been completed.

All certifications and assurances should be submitted in writing to the Office ofInspector
Gene,ral, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
VirgInia, 22230.

        I
Debarment

Regulptory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be impose4 for: .


            (b) 	   Violation of the terms of a public agreement or transaction so serous as to affect
                    the integrity ·of an agency program, such as -


                    (1) 	   A willful failure to perform in accordance. with the terms of one or more
                            public agreements or transactions; or·
                                                                                             Page 4



                (3) 	   A willful violation of a statutory or regulatory provision or requirement
                        applicable to a public agreement or transaction.

            I
In any debarment action, the government must establish the cause for debarment by a
preponderance oithe evidence. 2 CFR 180.850. In this case, you knowingly falsified images
such that the research was not accurately represented in the research record. Thus, your actions
support a cause for debarment under 2 CFR 180.800(b).
            I




Length o!pebarment

Debarmentmust be fora period commensurate with the seriousness of the caUses lipon which an
indi\jdual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longerperiod may be imposed. 2 CFR
180.865. 'Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors· set forth in 2 CFR 180.860, we are proposing your debarment far three
years.


Appeal Procedures for Finding of Research.Misconduct and Procedures. Governing
Proposed Debarment

Appeal Pr()c~duresfor Finding ofR~search Misconduct

Under NSF's. regulations, you have 30 days after receipt of this letter to submit an appeal oithis
finding, in writing, to the Director of the Foundation. 45 CFR 689.1O(a). Any appeal should be
addressed to the Director at the National Sc,ienceFoundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become final. For yourinfotmation, weare
attaching a copy of the applicable regulations.


Procedures Governing Proposed Debarm~nt

Theptovisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision"::making. Under these regulations, you have 30 days. after receipt of this notice to
submit, in person orin writing, or through a representative, information and argument in
opposition to this debarment. 2 CPR 180.820. Comments submitted within the 30-dayperiod
will recdive full consideration and may lead to a revision of the recommended disposition. If
NSl" does not receive a response to this notice within the 30-day period, this debarment will
become ;final.


        I
                                                                                               Page 5
   I
Any response should be addressed to Lawrence Rudolph, General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard. Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy'ofthe Foundation's regulations
on hon-procurement debarment and FAR Subpart 9 .4.

, Should you have       """''''UVJ= about the' foregoing, please c o n t a c t _ , Assistant
  General Counsel, at



                                                     Sincerely,


                                                 ~                Ffr   ~~
                                                     Cora B. Marrett
                                                     Acting Deputy Director



Enclosures:
Invystigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
       I
ir'




                                      NATIONAL SCIENCE FOUNDATION
                                           4201 WILSON BOULEVARD
                                          ARLINGTON, VIRGINIA 22230




         .oFFICE .oF THE
        DEPUTY DIRECTOR
          I
          r




      VIA CERTIFIED MAILIRETURN RECEIPT REQUESTED
              "




              Re: Notice ojDebarment



      Dear

      On                     the Natienal Science Feundatien ("NSF") issued t.o y.oU aN.otice .of
      Pr.oposed Debarnlent ("Netice"), in which NSF propesed to debar yeu frem directly .or indirectly
      obtaining the benefits .of Federal grants fer a peried .of three years. As'reflected in the Netice,
      NSF proposed your debarment for including falsified images in an artiC~e published in a
      scientific jeurnal,as well as a dissex:tation SUbmitted te yeur university's faculty in pursuit of
      yeur decterate degree. In additien, NSF teok additienal administrativeactiens, against yeu in
      acce~dance with NSF's regulatiens geverning research miscenduct. In that Netice, NSF
      previded yeu with thirty days te respend te the propesed debarment,.

      Over thirty days have elapsed and NSF has net received a response. Accerdingly, yeu are
      debarred until                     . Debarment precludes y.ou fremreceiving Federal financial
      and non-financial assistance and benefits under nen-procurement Federal pregrams and activities
      unless an agency head .or ,autherized designee makes a determinatien te grant an exceptien in
      accerdance with 2 CPR 180.2:35. Nen-precurement transactiens include grants; coeperative
      agreements, schelarships, fellowships, centracts .of assistance, leans, lean .guarantees, subsidies,
      insurance, payments fer specified use, and denatien agreements.

      In a~ditien, yeu are prehibited frem receiving Federal centracts .or appreved subcontracts under
      the F:ederal Acquisitien Regulatiens at 48 CFR Subpart 9.4 fer the peried .of this debarment.
      2 CPR 180.925. During the debarment peried. you may net have supervisory re;spensibility,
      primary management, substantive centrel ever, .or critical influence on, a grant, centract, .or
      cQQperative agreement with any agency of the Executive Branch .of the Federal Government.
. .

                                                                                                        2 	-
      Lastly, please note that, in the                 Notice, NSF also took the following actions
      against you, which continue to remain in effect:

         •. From the end of your debarment period through                             you are required to
           I 	 submit certifications to NSF's Office of.Inspector General that any proposals or reports
               you submit to NSF do not contain plagiarized, falsifiyd, or fabricated material,

         • 	 From the end of your debarment period through                        , you are required to
             submit assurances by a responsible official of your employer that any proposals or reports
             you submit to NSF do not contain plagiarized, falsified, or fabricated materi.aL These
             assurances must be submitted to NSF's Office ofInspector General.

         • 	 You are prohibited from serving as an NSF reviewer, ;advisor, or consultant until
                                .

         • 	 ;. VOll   are required to complete an ethics training ceurse en plagiarism ll:O later than
            .                          . You must certify in writing to NSF's Office of Inspector General
                 that such training has been completed.

            I'
      Should you have an~ding the foregoing, please c o n t a c t _ , Assistant
      General Counsel, at~.




                                                              Sincerely;



                                                              Cota B. Marrett
                                                              Acting Deputy Director




                       ..
